0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amicus Curiae Immigration Reform Law Institute in
Support of Respondents in 20-315, Jose Santos
Sanchez, et ux. v. Alejandro N. Mayorkas, Secretary of
Homeland Security, were sent via Next Day Service to
the U.S. Supreme Court, and Next Day and e-mail
service to the following parties listed below, this 31st
day of March, 2021:
Jaime Winthuysen Aparisi
8191 Silver Spring Ave.
Silver Spring, MD 20910
(301) 562-1415
jaime@aparisi.com

Counsel for Petitioners
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
: Washington , DC 20005

Christopher J. Hajec
Counsel of Record
Matt A. Crapo
Immigration Reform Law Institute
25 Massachusetts Ave., NW
Suite 335
Washington, DC 20001
(202) 232-5590
chajec@irli.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 31, 2021.

E~ p1~

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

